 

OFFICE OF ATTORNEY GENERAL
STATE OF OKLAHOMA

September 23, 2021

Mr. Scott S. Harris, Clerk

The Supreme Court of the United States
One First Street, NE

Washington, DC 20543

RE: Nolen v. Oklahoma, Case No. 21-5491
Dear Mr. Harris:

Pursuant to Rule 30.4 of the Rules of the Supreme Court, undersigned counsel
hereby requests an extension of time in which to respond to the petition for writ of
certiorari filed in the above-captioned case. The extension is justified for the
following reasons.

The petition was filed on August 16, 2021. The brief in opposition is due on
September 27, 2021. Counsel for the State will not be able to complete the brief by
the filing deadline for the following reasons. The undersigned has been part of the
team filing a number of certiorari petitions in cases arising out of this Court’s
decision in McGirt v. Oklahoma, 140 S. Ct. 2452 (2020), including the following
since the petition was filed in this case: Oklahoma vy. Williams, Case No. 21-265,
filed August 21, 2021; Oklahoma v. Mize, Case No. 21-274, filed August 21, 2021;
Oklahoma v. Ball, Case No. 21-327, filed August 27, 2021; Oklahoma v. Sizemore,
Case No. 21-326, filed August 27, 2021; Oklahoma v. Spears, Case No. 21-323,
filed August 28, 2021; Oklahoma v. Bain, Case No. 21-319, filed August 27, 2021;
Oklahoma v. Harjo, Case No. 21-322, filed August 27, 2021; Oklahoma v. Janson,
Case No, 21-325, filed August 27, 2021; Oklahoma v. Grayson, Case No. 21-324,
filed August 27, 2021; Oklahoma v. Perry, Case No. 21-320, filed August 27, 2021;
Oklahoma v. Johnson, Case No. 21-321, filed August 27, 2021; Oklahoma v.

1

313 N.E, 21st Streer * OxLanoma Crry, OK 73105 * (405) 521-3921 © Fax: (405) 521-6246

aw
Yd recycled paper
Cooper, Case No. 21-372, filed September 4, 2021; Oklahoma v. Beck, Case No. 21-
373, filed September 4, 2021; Oklahoma v. Epperson, Case No. 21-369, filed
September 4, 2021; Oklahoma v. Stewart, Case No. 21-370, filed September 4, 2021;
Oklahoma v. Jones, Case No. 21-371, filed September 4, 2021; Oklahoma v. Castro-
Huerta, Case No. 21-429, filed September 17, 2021; Oklahoma v. Jones, Case No.
21-___, filed September 17, 2021; Oklahoma v. Martin, Case No. 21-___, to be filed
September 24, 2021; Oklahoma v. McDaniel, Case No. 21-__, to be filed
September 24, 2021; Oklahoma v. Shriver, Case No. 21-__, to be filed September
24, 2021; Oklahoma v. Fox, Case No. 21-__, to be filed September 24, 2021; and
Oklahoma v. McCombs, Case No. 21-__, to be filed September 24, 2021.

I have also recently completed additional McGirt-related filings. On
September 2, 2021, 1 filed Motion to File Supplemental Brief in Light of State ex rel.
Matloff v. Wallace and tendered State’s Supplemental Brief in Light of State ex rel.
Matloff v. Wallace in Terry v. State, Case No. PC-2018-1076. On August 31, 2021,
I filed State’s Notice of Decision in State ex rel. Matloff v. Wallace, 2021 OK CR 21,
—_— P.3d __ and Request to Modify this Court’s Prior Opinion in this Case
Granting Post-Conviction Relief or Alternatively Request to Continue Stay in Bench
v. State, Case No. PCD-2015-698, Cole v. State, Case No. PCD-2020-529, and Ryder
v. State, Case No. PCD-2020-613. And on August 23, 2021, I filed Response to
Application for Post-Conviction Relief in Smith vy. State, Case No. PC-2021-269.

I am part of the team helping to manage and oversee any McGirt-related
litigation in the criminal appeals division of the Oklahoma Attomey General’s
Office. I am also a reviewer of the work of two other attorneys in the criminal
appeals division, and in that capacity I review all pleadings filed by those
individuals. Finally, I am chief of the federal habeas unit within the division, and in
so doing am in charge of federal habeas training and reviewing all federal filings by
habeas trainees. These responsibilities consume a significant amount of my time.

For all of the foregoing reasons, the State respectfully requests an additional
thirty days, or until October 27, 2021, in which to file its brief in opposition.
*Counsel of record

JOHN M. O’CONNOR
ATTORNEY GENERAL OF OKLAHOMA

Nk

CAROLINE E.J. HUNT, OBA #32635*
ASSISTANT ATTORNEY GENERAL
313 NE 21st Street

Oklahoma City, Oklahoma 73105

(405) 521-3921 FAX (405) 521-4534

ATTORNEYS FOR RESPONDENT
